December 6, 2000
Audit Report No. 00-049


Computer Virus Protection Program
Federal Deposit Insurance Corporation                                                           Office of Audits
Washington, D.C. 20434                                                              Office of Inspector General




   DATE:               December 6, 2000

   TO:                 John F. Bovenzi, Chief Operating Officer

                       Donald C. Demitros, Chief Information Officer and Director
                       Division of Information Resources Management



   FROM:               David H. Loewenstein
                       Assistant Inspector General

   SUBJECT:            FDIC's Computer Virus Protection Program
                       (Audit Report No. 00-049)


   The Office of Inspector General (OIG) has completed an audit of the Federal Deposit Insurance
   Corporation’s (FDIC) Computer Virus Protection Program (CVPP). This audit was performed to
   assess the Corporation's ability to identify, contain, and clean computer viruses.


   BACKGROUND

   The Division of Information Resources Management's (DIRM) Information Security Staff (ISS)
   reported 45,000 FDIC computer virus incidents during the first three quarters of 1999. A computer
   virus is a specially designed computer program that has the ability to replicate itself and modify
   other programs. This program may contain malicious instructions that disrupt a computer's proper
   operation or destroy programs and other data stored in a computer. The FDIC defines a computer
   virus incident as each occurrence of a virus being detected by FDIC computer virus protection
   software (CVPS). Computer viruses normally target the most popular or commonly used systems to
   achieve the greatest disruption.

   The economic impact of computer virus contamination is determined by considering the expense of
   eliminating the virus and restoring the infected computer to its pre-contaminated state. This expense
   also includes, in terms of time, lost productivity and potential loss of data. If computer virus
   contamination is left unchecked, the extent of this expense may be significant. For example, an
   August 1999 computer security publication reported that, "Computer virus attacks have cost
                                     1
   businesses $7.6 billion in 1999." Another possible impact of computer virus contamination,
   although less direct than the economic one, is the FDIC's loss of public trust due to perceived
   weaknesses in its computer virus protection capabilities.


   1
       Securitysense, Volume 2, No.10, August 1999, Page 1.
The FDIC CVPP started on April 9, 1991 with the issuance of the CVPP Directive, Circular 1360.2.
At that time the CVPP focused on minimizing computer virus contamination of employee desktop
microcomputers introduced through diskettes and spread through file-sharing using segregated FDIC
local area networks. Over the past 9 years, the CVPP has grown in complexity to keep pace with the
rapid advancement of information technology and its deployment within the FDIC. The CVPP
Directive, Circular 1360.2, has been updated twice, in1996 and in 1997, to enhance its effectiveness
and adapt it to changing conditions.

The expanded program now addresses computer virus contamination originating through electronic
mail and data transfers originating over the Internet, the FDIC Intranet, and, to a lesser extent,
through diskettes and compact disks. At our audit's commencement, the FDIC used several
computer virus protection software products to safeguard the FDIC's technical infrastructure that
consisted of 14,635 computers, including 438 network servers, 10,210 desktop computers, and
3,987 laptop microcomputers. Network servers, desktop computers, and laptop microcomputers
support communication functions and system-user office work. The FDIC's CVPP also addresses
network access by FDIC employees and contractors conducting official business at external
locations after normal operating hours.

Staffing to support the FDIC's CVPP is comprised of DIRM ISS, the DIRM Helpdesk, DIRM
system administrators, and, to a lesser extent, appointed information security officers (ISO) from
each of the FDIC's divisions and offices. With the exception of DIRM ISS, staff support for virus
protection is provided on an as-needed basis and is usually part-time. DIRM ISS has assigned two
employees full-time, one employee part-time, and six contractors part-time to support the CVPP.

In addition to staff support, the primary CVPP component used to safeguard FDIC computer
resources from virus contamination is the software. CVPS are commercially available products
designed to detect and eradicate viruses and notify responsible parties about the detection and
eradication incident. At the commencement of our audit, the FDIC used several CVPS products,
including VirusScan, Webshield and Netshield by Network Associates; Inoculin by Computer
Associates; Norton Anti-Virus by Symantec; and F-Secure by F-Secure Corporation.

DIRM's ISS Director has identified computer virus prevention as the highest priority within the
Corporation's IT security program. Prior to the audit's commencement, he established a Computer
Security Incident Response Team (CSIRT) to provide more timely response to computer virus
emergencies.


OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of the audit was to determine the effectiveness and efficiency of the FDIC's CVPP.
To accomplish this objective, we interviewed DIRM ISS, Helpdesk, and Local Area Network
(LAN) management personnel. We also interviewed ISOs from the Legal Division, Chairman's
Office, Division of Supervision, Division of Finance, Division of Administration, and the Division
of Resolutions and Receiverships. Additionally, we researched CVPP best practices and reviewed
                                                 2
FDIC CVPP policies, standards, and procedures. Furthermore, we assisted DIRM's ISS Director in
identifying solutions to improve FDIC's CVPP program. Solutions arrived at during the audit
included DIRM's implementing real-time virus protection for FDIC NT servers and increasing the
frequency of CVPS signature file updates for the FDIC's laptop computers.

Our audit focused on the FDIC CVPP's capability to prevent, detect, and eradicate computer virus
contamination. During our audit, we judgmentally sampled 52 FDIC computers in the Washington,
D.C., area to assess whether CVPS was functioning in accordance with management's intentions.
Our sample consisted of 19 desktop computers, 14 network servers and 19 laptop computers drawn
from a Washington, D.C., area population of 5,227 desktop computers, 236 network servers and
769 laptop microcomputers.

To accomplish sample testing, we employed computer virus simulators that would cause CVPS to
trigger an alert without putting FDIC computer resources at risk of viral contamination. We also
verified whether FDIC computers that were susceptible to computer virus contamination indeed had
CVPS protection. Furthermore, we determined whether the FDIC CSIRT responded to computer
virus emergencies in a timely manner. The audit was performed between November 1999 and
August 2000 in accordance with generally accepted government auditing standards.


RESULTS OF AUDIT

We concluded that the FDIC CVPP was generally effective in minimizing the exposure from
computer virus contamination. However, we identified possible improvements to further reduce the
probability of computer virus contamination within the Corporation. Specifically, we identified
several mission critical and operationally significant computers that were not afforded protection by
CVPS and other instances where CVPS was not fully utilized. We also noted that CVPS
maintenance could be strengthened and that the CVPP policies, standards, and procedures needed to
be updated and expanded to reflect current risks and operations. We communicated this
information to DIRM's ISS Director during our audit. DIRM's ISS Director initiated corrective
action during audit fieldwork to address some of these issues.

The effectiveness of the FDIC's CVPP was demonstrated during the global attack of the “I Love
You" computer virus. The actions taken by DIRM’s ISS to protect corporate assets minimized the
impact of the attack. Specifically, DIRM ISS was able to develop and institute firewall filters
attuned to viral characteristics provided by the CSIRT. This special filter prevented the virus from
reaching FDIC computer resources. Because of the early warning provided by the CSIRT, the FDIC
fared better than many other federal agencies. For example, the Social Security Administration
required 5 days to become fully functional and completely remove the virus from its systems.
Additionally, the Department of Labor’s recovery required over 1,600 employee and 1,200
contractor hours.




                                                 3
COMPUTER VIRUS PROTECTION PROGRAM WOULD BENEFIT FROM A
THOROUGH RISK ASSESSMENT

The absence of a thorough risk assessment to guide refinement of the CVPP resulted in protection
that was not always fully effective. CVPS was not resident on some susceptible FDIC systems and
was not fully employed on others. For those systems without CVPS, stringent software
                            2
configuration management was not in place to serve as a compensating protection mechanism.
System users could disable CVPS without DIRM ISS notification and did not always use power-up
           3
passwords to safeguard their desktop and laptop computers. Furthermore, an advanced CVPS
detection feature, heuristics analysis, was not being used to guard against newer, more sophisticated
viruses.

Although DIRM's ISS Director informally evaluated the vulnerabilities to the FDIC's IT resources
when he joined the Corporation in January 1999, a formal, documented risk assessment of the
FDIC CVPP had not been performed. Assessing risk is a prudent prerequisite to implementing
effective computer virus protection techniques. The Office of Management and Budget Circular A-
130: Management of Federal Information Resources, and the U.S. General Accounting Office's
Federal Information System Controls Audit Manual (FISCAM), both require periodic risk
assessments as part of an effective information resources management program.

During the period of April 1991 to December 1998, the FDIC CVPP evolved, according to DIRM
ISS, based upon specific virus incidents that faced the Corporation. The FDIC addressed the threat
from computer viruses, but its approach was characterized as more reactive than proactive. Since
its inception in April 1991, the FDIC CVPP has been supported by one primary directive, Circular
1360.2, FDIC Computer Virus Protection Program. The directive has been updated twice in an
effort to ensure its consistency with existing practices. Although procedures for the FDIC’s virus
protection program were developed and updated, DIRM ISS had not developed a formal strategic
plan or a risk assessment to support the CVPP program before 1999. In light of these
circumstances, the new DIRM ISS Director performed a preliminary vulnerability assessment
during the second quarter of 1999. A formal strategic plan to support the CVPP was then officially
established in October 1999.

As a consequence of not performing a thorough risk assessment, some FDIC computers were not
afforded the protection of computer virus protection software. Specifically, we noted that Sun
Solaris, IBM Mainframe, Lucent Private Branch Exchanges, and Cisco Routers and Switches were
not afforded virus protection software. Most of these computers either make use of a version of the
Unix operating system (or an operating system with a Unix component) or transfer information to
or from a computer with a Unix operating system derivative. These computers are involved in
varying degrees of internal and external data communication activity and support mission critical
FDIC systems. The Unix operating system's susceptibility to computer virus contamination was

2
    A process whereby computer programs are tightly controlled to detect and record all changes.
3
    Power-up passwords are the primary security mechanism for preventing local access to a computer's hard disk drive.

                                                             4
first recognized in 1989 by computer virus researchers.

While stringent software configuration management can provide a compensating control to the
absence of CVPS, this practice was not consistently used within the FDIC. However, the absence
of stringent software configuration management has been addressed in the OIG's recent audit report
entitled FDIC's IT Configuration Management Program (Report Number 00-038) and will not be
addressed further within this audit report.

While we noted that the FDIC's Windows NT network servers were equipped with CVPS, we
found that the virus protection software was not fully utilized. Specifically, these network servers
did not use resident computer virus protection software in a real-time mode. Rather, such software
                          4
was run in a batch mode, usually overnight. According to DIRM LAN management personnel, NT
server virus-protection software was not used in a real-time mode due to network performance
problems.

While desktop and laptop systems have real-time virus detection capabilities through another
CVPS, the FDIC user community can easily disable this computer virus protection software without
automatic notification to DIRM ISS by the subject computer. FDIC’s exposure, due to users’
ability to disable virus protection software without automatic notification, is increased if individuals
other than the intended user can access the desktop. Power-up passwords are the primary security
mechanism for preventing local access to a computer's hard disk drive. Audit testing of 38 desktop
and laptop computers revealed that system users had not used power-up passwords to restrict access
on any of the computers.

FDIC's CVPP Directive, Circular 1360.2 requires that power-up passwords be used. Power-up
passwords can prevent unauthorized computer access and the introduction of computer viruses by
third parties. Access to the hard drive permits access to all FDIC software and data contained on it.
However, DIRM ISS's planned implementation of cryptography with smart-card technology
provides a compensating control to alleviate the need for power-up passwords. Accordingly, no
recommendation regarding power-up password use will be made in this report.

In addition to users being able to circumvent desktop and laptop real-time CVPS, the FDIC had not
implemented the heuristic analysis feature available within its CVPS. Heuristic analysis is a state-
of-the-art anti-virus technique that can detect new viruses before they have the chance to
contaminate a computer. Specifically, heuristic analysis involves identifying destructive program
code before the code is executed. Heuristic analysis is the primary method to detect both new and
              5
polymorphic computer viruses, such as those that recently contaminated worldwide computer
networks.

We brought these issues to DIRM’s attention during the course of our audit. In response to some of
these issues, DIRM's ISS Director initiated corrective action during the process of fieldwork.

4
    A program is resident but dormant on a computer and requires manual intervention to execute.
5
    A computer virus that modifies itself each time it replicates to avoid detection by CVPS.
                                                            5
Specifically, he budgeted for Unix computer virus protection software and plans to employ an
external computer virus expert to perform a CVPP risk assessment. In addition, he has initiated
research to identify computer virus protection program software that can be used on FDIC NT
servers in a real-time mode. Furthermore, he has activated the heuristic analysis feature contained
in CVPS. DIRM officials also advised that other IT initiatives limit their current ability to restrict
users from disabling virus protection software, but that future planned activities would address this
issue. The DIRM officials also agreed to continue to research interim options for restricting users’
ability to disable virus software. Management’s actions and plans to address these issues have and
will provide benefits to the Corporation. Because some of DIRM’s planned actions are not yet
complete and because virus protection activities are dynamic in nature, except as noted, we are
including recommendations for each of the issues discussed in this section.


Recommendations

We recommend that the Chief Information Officer and Director, DIRM, ensure that:

(1) A formal and thorough risk assessment of the FDIC CVPP is conducted and the results used
    as the basis for future enhancements to computer virus protection within the Corporation.

(2) Virus protection software is acquired and implemented for mission critical or operationally
    significant Unix-based computers within the Corporation, such as Sun Solaris and Oracle .

(3) Computer virus protection software for Windows NT servers be improved or replaced to
    provide real-time coverage.

(4) DIRM ISS continues to research methods of preventing the user community's capability to
    disable virus protection software used on FDIC desktop workstations and laptop computers
    without DIRM ISS notification. Once an optimal method is identified, DIRM ISS should
    implement it on a timely basis.

(5) Available heuristic analysis features of computer virus protection software used by the FDIC
    is activated.


COMPUTER VIRUS PROTECTION SOFTWARE MAINTENANCE NEEDS
IMPROVEMENT
                                    6
CVPS signature file updates were not performed at least weekly to minimize the risk of viral
contamination. In addition, complete documentation supporting testing of CVPS upgrades, testing
of signature-file updates, and management approval of CVPS configuration settings was not
established and retained. Also, sufficient numbers of qualified DIRM ISS staff may not exist to

6
    The process of adding new virus characteristics to the existing, applicable database within CVPS.
                                                             6
effectively handle the CVPP workload and FDIC laptop computer users are not accessing the FDIC
network frequently enough to receive the latest CVPS signature-file updates. Furthermore, the
CVPS alert generation function did not always work as intended by management and generated
alerts were not consistently received by the CSIRT or captured in weekly statistical reports to
management.

At the audit’s inception, FDIC desktop and laptop CVPS non-emergency signature-file updates
occurred on a monthly basis. Although more frequent updates were observed for network-
connected desktop computers in response to viral emergencies, testing of signature file updates was
limited to re-verifying the detection of three viruses recently encountered at the FDIC.
Additionally, the DIRM ISS Director indicated that all CVPS signature file updating for laptop
computers was often less frequent due to extended periods of disconnection from the FDIC
networks. We also noted that test documentation supporting CVPS upgrades and signature-file
updates was incomplete in terms of test purpose, methods, and results. Finally, we noted a lack of
                                                                              7
evidence supporting management approval of CVPS configuration settings.

Due to the proliferation of computer viruses and the volume of new virus activity, signature file
updates should be applied to FDIC computers as soon as they are made available by the CVPS
vendor. For example, the 1999 FDIC National Information Security Officer Conference reported
that at least 10 new viruses are created per day. Testing of virus signature file updates should be
sufficient to ensure CVPS continued and proper operation. Furthermore, such testing should
ensure that files, updated to detect available new virus signatures, correctly detect the new viruses.

Complete documentation should be established and retained to substantiate the test's purpose,
methods, and results. Evidence of management review and approval of CVPS configuration
settings should be retained to provide an official record substantiating that settings conform to
management's intentions and to facilitate accountability over their specification.

Monthly virus signature file update frequency, limited signature file update testing, incomplete
CVPS test documentation, and undocumented CVPS configuration-setting management approval
are the result of shifting operational priorities. Such shifting priorities are driven by DIRM ISS's
extremely heavy workload. Additionally, some laptop users do not consistently access the FDIC
network frequently enough to facilitate receipt of CVPS signature file updates. For example, the
unique nature of Division of Supervision field operations makes frequent access to FDIC networks
inconvenient.

 As a result of the cited conditions, new computer viruses may not be detected and eradicated by
existing CVPS, and the CVPS itself may not function as represented by the vendor. In addition,
CVPS operation and testing may not conform to management's intentions, all of which may permit
viral contamination of FDIC computer resources. Examples of these effects are illustrated by our
                                     8
audit test results. First, the method used to invoke CVPS on desktop computers influenced


7
    Specified operating parameters that govern how the software will function.
8
    CVPS can be invoked by either scanning a file or by attempting to use (read, write, delete) a file.
                                                               7
whether an alert message was sent to the CSIRT in response to a detected virus. Second, on 13 of
19 desktop computers and 13 of 14 network servers evaluated, CSIRT did not receive simulated
virus alerts and accordingly, did not respond to them. Third, viral alerts generated from detected
external-electronic-mail-message viruses were not sent to the message originator. Fourth, with 13
of 19 desktop computers, 13 of 14 network servers, and all external email tested, generated virus
alerts were not captured in weekly virus statistical reports used by the DIRM ISS Director to
measure the effectiveness of the CVPP. The details of these test exceptions were communicated to
DIRM ISS during the audit.

We brought these issues to the attention of DIRM’s ISS Director during the course of our audit. In
response to some of the conditions cited, the DIRM ISS Director initiated a research effort early in
the audit to identify and implement an automated method for enforcing the timely receipt of
signature file updates by laptop computer users. He also instituted weekly, as opposed to monthly,
CVPS signature file updates. Management’s actions and plans to address these issues have and will
provide benefits to the Corporation. Because some of DIRM’s planned actions are not yet complete
and because virus protection activities are dynamic in nature, we are including recommendations
for each of the issues discussed in this section.


Recommendations

We recommend that the Director, DIRM, ensure that:

(6) CVPS signature-file updates be performed as frequently as possible, preferably weekly, to
    minimize the risk of viral contamination.

(7) Complete documentation supporting the testing of CVPS upgrades and signature-file updates
    is established and retained in accordance with FDIC record retention policy.

(8) Management approval of CVPS configuration settings is established and retained in
    accordance with FDIC record retention policy.

(9) All uncleaned virus alerts generated by CVPS are consistently communicated to the CSIRT by
    the contaminated computer for follow-up and captured in weekly statistical reports to DIRM's
    ISS Director.

We further recommend that the FDIC Chief Operating Officer direct:

(10) All FDIC laptop computer users to access the FDIC network, preferably weekly but at least
     monthly, using their laptop computers to receive CVPS signature file updates.




                                                 8
COMPUTER VIRUS PROTECTION PROGRAM POLICIES, STANDARDS AND
PROCEDURES NEED TO BE EXPANDED AND UPDATED

DIRM Directive 1360.2, the overarching CVPP policy that was revised on April 29, 1997, is
comprehensive and contains instructions for virus recovery to assist system users in minimizing
                                                               9
computer damage. We further noted that the CSIRT Procedure addressed the disposition of
viruses detected through FDIC CVPS. However, we noted that Directive 1360.2 did not contain
certain information regarding computer virus prevention, detection, and eradication that, if
included, would enhance it and the entire FDIC CVPP.

We found that the policy would be enhanced in terms of virus prevention if it included the
following:
! Requirements that CVPS be used on all FDIC computers.
! Descriptions of alternate virus protection methods, such as stringent software configuration
    management, to be used when CVPS is not commercially available for a given FDIC computer.
! Technical supplements describing CVPS used at the FDIC and the software features selected,
    such as heuristics analysis, to minimize risk of contamination.
! Directions for using the recently installed central clearing computer for the purpose of
    inspecting and removing viruses prior to installation and execution on corporate computers.
! Instructions on how non-FDIC organizations with access to FDIC computer resources should
    comply with the CVPP.
! Information addressing FDIC employee and contractor virus awareness and protection training.
! Process descriptions on establishing and maintaining the frequency of virus signature file
    updates.
! Descriptions of newly developed, recurring virus protection tasks such as the firewall filtering
    used by DIRM ISS to counteract the recent “I Love You” virus incident.

We also found that the policy would be enhanced in terms of virus detection if it included the
following:
! Directions on using the CSIRT to perform analysis of new viruses and a description of the
    current role of the DIRM Help Desk and the Information Security Officers (ISOs) relative to
    their participation in the CVPP.
! Explanations regarding the use of multiple virus scanning and viral alert methods on FDIC
    computers.
! Guidance on using the recently created virus incident database as a reference tool.

In addition, we found that the policy would be enhanced in terms of virus eradication if it included
the following:
! Guidance on proper measures to be taken to remove computer viruses from compact disks and
    diskettes and on measures to take for sending newly detected viruses to outside virus labs for
    further analysis.
! Reference to supplemental CVPP policies and procedures, such as Home Use of FDIC Anti-

9
    A recent procedure that governs how the Computer Security Incident Response Team operates.
                                                           9
   virus Software and CSIRT Procedures with descriptions of their intended purpose.

Current and complete policies, standards, and procedures ensure that complex areas, such as
computer virus protection, operate in accordance with management’s intentions. In addition, such
policies, standards and procedures provide employees with a written reference that is especially
helpful for infrequently performed duties. GAO’s FISCAM stipulates that management
periodically assess the appropriateness of security policies and procedures as well as compliance
with them.

DIRM ISS has focused its human resources principally on dealing with computer virus incidents
facing the Corporation. As a result, maintenance of relevant directives became a secondary
concern. FDIC employees may not be fully aware of effective actions to employ when faced with a
computer virus contamination incident. Complete policies and procedures will help ensure that
corporate information technology resources will not be exposed to significant risk if crucial steps
are omitted or misunderstood. Furthermore, without the benefit of proper documentation, DIRM
ISS staff members responsible for performing anti-viral related tasks may not be able to perform
their duties in a repeatable manner. This lack of regularity could result in system down-time,
significantly impairing corporate operations and thereby weakening public confidence and trust in
the FDIC.

We brought these issues to DIRM’s attention during the course of our audit. In response, DIRM's
ISS Director initiated a review of all policies and procedures related to the CVPP. Because this
analysis is not yet complete and because virus protection activities are dynamic in nature, we are
including a recommendation to continue the review of existing policies and procedures.

Recommendations

We recommend that the Chief Information Officer and Director, DIRM, ensure that:

(11) DIRM ISS continues with its review of all policies and procedures currently in place
     relative to the CVPP.

(12) Upon the successful completion of the policy and procedure review, DIRM ISS develop and
     implement security policies that depict updated CVPP operational requirements and
     include, but are not limited to, the areas of computer virus prevention, detection, and
     eradication described above.


CORPORATION COMMENTS AND OIG EVALUATION

On November 6, 2000, the Chief Information Officer and Director, Division of Information
Resources Management, provided a written response to the draft report. The responses are
presented in Appendix I of this report. Subsequent to the November 6 response, DIRM provided
additional information regarding recommendation 10, directed to the FDIC's Chief Operating
                                                10
Officer.

Based on discussions between the Chief Operating Officer and the Chief Information Officer and
Director, DIRM, the FDIC agrees with recommendation 10. Currently, e-mails are issued to all
DOS and DCA Field Offices and all Field Office Representatives every 2 weeks notifying all staff
to update their laptop CVPS signature files. By February 15, 2001, the COO will issue a
memorandum to all FDIC employees requiring all laptop users to access the FDIC intranet at least
once a month and download the latest CVPS signature file updates to their laptops. In 2001, DIRM
will explore several options to enhance the ease with which laptop users can update the CVPS files.
Current alternatives that are being investigated include assessing the feasibility of new software
which will support “automatic” updates of CVPS files whenever a laptop user accesses the
network.

The Corporation’s response to the draft report provided the elements necessary for management
decisions on the report’s recommendations. Therefore, no further response to this report is
necessary. Appendix II presents management’s proposed action on our recommendations and
shows that there is a management decision for each recommendation in this report.




                                                11
                                              CORPORATION COMMENTS                          APPENDIX I

Federal Deposit Insurance Corporation
3501 North Fairfax Dr., Arlington, VA 22226                             Division of Information Resources Management



                                                           November 6, 2000


TO:                    David H. Loewenstein
                       Assistant Inspector General



FROM:                  Donald C. Demitros, Director

SUBJECT:               DIRM Management Response to the Draft OIG Report Entitled, “Audit of the
                       FDIC's Computer Virus Protection Program” (Audit Number 99-906)


The Division of Information Resources Management (DIRM) has reviewed the subject draft audit
report and generally agrees with the findings and recommendations. We were especially gratified
that the audit found a “generally effective” program and recognized our efforts during the “I Love
You” incident. We agree that this discipline requires constant improvement and vigilance.
Responses to each of the specific recommendations (1 through 9, 11 and 12) directed to DIRM are
provided below. Recommendation number 10 was directed to the Chief Operating Officer.

Management Decision:

Recommendations: We recommend that the Director, DIRM, ensure that:

(1) A formal and thorough risk assessment of the FDIC Computer Virus Protection Program
    (CVPP) is conducted and the results used as the basis for future enhancements to computer
    virus protection within the Corporation.

        DIRM Response: DIRM conducted a preliminary vulnerability assessment of the CVPP
        during the second quarter of 1999 and this OIG audit serves as an additional assessment.
        OMB A-130 requires such an assessment for major applications and general support systems
        but not a computer virus program. The current program has saved the Corporation millions of
        dollars in terms of possible down time and as compared to other agencies and the private
        sector. In accordance with its IS Strategic Plan, DIRM is implementing solutions to further
        strengthen the virus protection program. DIRM will have a vendor independently review and
        verify that the implemented solutions are effective in mitigating the virus risks to the
        Corporation. DIRM currently anticipates that this will be completed by June 30, 2001, after
        all the identified measures are put in place.

(2) Virus protection software is acquired and implemented for mission critical or operationally
    significant Unix-based computers within the Corporation, such as Sun Solaris and Oracle.

        DIRM Response: The industry has not reported any Solaris or Oracle viruses in the “wild”

                                                      12
     for over a decade. The anti-virus vendor community is selling anti-virus software that
     operates on the UNIX environment but that cannot be tested against the UNIX file systems as
     there are no UNIX-specific viruses identified for the platform. The 2001 implementation of
     DIRM’s new configuration management methodologies will serve as an added precaution to
     insure that the ten FDIC employees who are responsible for software installation and/or
     maintenance on UNIX servers do not install software that might contain other types of viruses.
      DIRM will evaluate any promising UNIX-specific anti-virus packages when they become
     available in the anti-virus software community.

(3) Computer virus protection software for Windows NT servers be improved or replaced to
    provide real-time coverage.

     DIRM Response: Following a Request for Information (RFI) and a formal evaluation of
     several anti-virus software packages, DIRM has selected Trend Micro. This product will
     provide the real-time coverage as well as the centralized reporting. Implementation is targeted
     to begin in December of 2000.

(4) DIRM ISS continues to research methods of preventing the user community's capability to
    disable virus protection software used on FDIC desktop workstations and laptop computers
    without DIRM ISS notification. Once an optimal method is identified, DIRM ISS should
    implement it on a timely basis.

     DIRM Response: In August 2000 DIRM ISS began the evaluation of Vshield 4.5 as a
     potential means of mitigating this risk. This newer version may make it harder for the user to
     disable the anti-virus software. DIRM ISS and the technical infrastructure staff will complete
     this evaluation by March 31, 2001. Note that DIRM is limited in being able to control user
     actions due to an insecure operating system (Windows 95). The pending upgrade to Windows
     2000 may also further reduce or eliminate this vulnerability.

(5) Available heuristic analysis features of computer virus protection software used by the FDIC
    are activated.

     DIRM Response: This feature was activated nationwide in August 2000 with the exception
     of laptops, which will be completed by the end of the year.

(6) CVPS signature-file updates be performed as frequently as possible, preferably weekly, to
    minimize the risk of viral contamination.

     DIRM Response: As of January 2000 DIRM is implementing weekly updates for the servers
     and biweekly updates for the desktop. The website available for laptop users to download
     anti-virus updates is also updated every two weeks.




                                                13
(7) Complete documentation supporting the testing of CVPS upgrades and signature-file updates
    is established and retained in accordance with FDIC record retention policy.

     DIRM Response: By November 15, 2000 DIRM ISS will provide complete documentation
     supporting the testing of upgrades and signature updates.

(8) Management approval of CVPS configuration settings is established and retained in
    accordance with FDIC record retention policy.

     DIRM Response: By January 15, 2001 DIRM ISS will publish management approved
     configuration settings for the following platforms: Desktop, Laptop, Servers, and NT
     Workstations. These settings will be published on a public folder, made available to DIRM,
     and retained in accordance with FDIC record retention policy.

(9) All uncleaned virus alerts generated by CVPS are consistently communicated to the CSIRT by
    the contaminated computer for follow-up and captured in weekly statistical reports to DIRM's
    ISS Director.

     DIRM Response: DIRM is purchasing the Trend Micro anti-virus software for NT servers
     and Exchange servers to be implemented by December 31, 2000. This software will provide
     centralized alerts for the server. The desktop software provides alerts for uncleaned viruses
     with the exception of a manual scan where the user invokes the anti-virus software from the
     programs menu. When a virus is found during a manual scan the user only gets one option
     and that is to clean the virus. However, no alert is generated. If the software cannot clean the
     virus, it will stop the user from executing or copying the file. An attempt by the user to copy
     or execute the file will trigger the real-time anti-virus software that will in turn trigger an alert.
      Therefore, DIRM ISS believes that there is minimal risk to the Corporation. However, to
     remain proactive in the timely identification of uncleaned viruses, DIRM ISS will continue to
     work with the leading virus vendors. To that end, ISS requested in September 2000 that
     Network Associates, Inc. (NAI) consider the enhancement of their centralized alert feature
     during manual scans as a product enhancement. NAI agreed to consider the request.

We further recommend that the FDIC Chief Operating Officer direct:

(10) All FDIC laptop computer users to access the FDIC network, preferably weekly but at least
     monthly, using their laptop computers to receive CVPS signature file updates.

     DIRM Comment: This action item was assigned to the Chief Operating Officer (COO).




                                                   14
(11) DIRM ISS continues with its review of all policies and procedures currently in place
     relative to the CVPP.

     DIRM Response: DIRM ISS will complete its initial review of its CVPP policies and
     procedures by December 31, 2000.

(12) Upon the successful completion of the policy and procedure review, DIRM ISS develop and
     implement security policies that depict updated CVPP operational requirements and
     include, but are not limited to, the areas of computer virus prevention, detection, and
     eradication described above.

     DIRM Response: DIRM ISS will continue to improve its CVPP and implement policies and
     procedures that depict the improved CVPP. The revised version of the anti-virus directive
     (Circular 1360.2) is anticipated to be developed and in the Corporate Directive Clearing
     process by March 31, 2001.


Please address any questions to DIRM's Audit Liaison, Rack Campbell, on (703) 516-1422.




                                                15
                                                                   APPENDIX II

                                         MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual
reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are
necessary. First, the response must describe for each recommendation

   ! the specific corrective actions already taken, if applicable;
   ! corrective actions to be taken together with the expected completion dates for their implementation; and
   ! documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any
disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid. Second,
the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The
information for management decisions is based on management’s written responses to our report.




                                                                         16
                                                                                      Documentation That               Management
 Rec.                                                                Expected            Will Confirm       Monetary   Decision: Yes
Number      Corrective Action: Taken or Planned/Status            Completion Date        Final Action       Benefits      or No
         DIRM will have a vendor independently review and
                                                                                        Vendor report on
  1      verify that implemented solutions are effective in         June 30, 2001                            None          Yes
                                                                                          virus risks
         mitigating the virus risks to the Corporation.
         The 2001 implementation of DIRM’s new
         configuration management methodologies will serve
         as an added precaution to ensure that the ten FDIC
         employees who are responsible for software                                    New configuration
                                                                                                                           Yes
  2      installation and/or maintenance on UNIX servers do       December 31, 2001      management          None
         not install software that might contain other types of                         methodologies
         viruses. DIRM will evaluate any promising UNIX-
         specific anti-virus packages when they become
         available in the anti-virus software community.
         Following a Request for Information (RFI) and a
         formal evaluation of several anti-virus software                                   System
  3      packages, DIRM has selected Trend Micro. This             December 2000        implementation       None          Yes
         product will provide the real-time coverage as well as                           notification
         the centralized reporting.
         In August 2000, DIRM ISS began the evaluation of
         Vshield 4.5 as a potential means of mitigating this
         risk. This newer version may make it harder for the
  4                                                                March 31, 2001      Evaluation report     None          Yes
         user to disable the anti-virus software. DIRM ISS
         and the technical infrastructure staff are continuing
         with this evaluation.
                                                                                        Computer virus
         This feature was activated nationwide in August
                                                                                           software
  5      2000 with the exception of laptops, which will be        December 31, 2000                          None          Yes
                                                                                         configuration
         completed by the end of the year.
                                                                                        documentation
         As of January 2000 DIRM is implementing weekly
         updates for the servers and biweekly updates for the                            Computer virus
  6      desktop. The website available for laptop users to          Completed         protection program    None          Yes
         download anti-virus updates is also updated every                               documentation
         two weeks.



                                                                           17
                                                                                      Documentation That                  Management
 Rec.                                                                Expected            Will Confirm          Monetary   Decision: Yes
Number      Corrective Action: Taken or Planned/Status            Completion Date        Final Action          Benefits      or No
         By November 15, 2000 DIRM ISS will provide                                      Computer virus
  7      complete documentation supporting the testing of         November 15, 2000       software test         None          Yes
         upgrades and signature updates.                                                 documentation
         By January 15, 2001 DIRM ISS will publish
         management approved configuration settings for the
         following platforms: Desktop, Laptop, Servers, and                            Approved computer
  8      NT Workstations. These settings will be published         January 15, 2001      virus software         None          Yes
         on a public folder, made available to DIRM, and                              configuration settings
         retained in accordance with FDIC record retention
         policy.
         To remain proactive in the timely identification of
         uncleaned viruses, DIRM ISS will continue to work
         with the leading virus vendors. To that end, ISS
                                                                                          Letter to NAI
         requested in September 2000 that Network
  9                                                                  Completed             requesting           None          Yes
         Associates, Inc. (NAI) consider the enhancement of
                                                                                          enhancement
         their centralized alert feature during manual scans as
         a product enhancement. NAI agreed to consider the
         request.
         The COO will issue a memorandum to all FDIC
         employees by February 15, 2001, requiring all laptop
                                                                                       Memorandum from
  10     users to access the FDIC intranet at least once a        February 15, 2001                             None          Yes
                                                                                            COO
         month and download the latest CVPS signature file
         updates to their laptops.
                                                                                        Notification of
         DIRM ISS will complete its initial review of its
                                                                                       CVPP policies and
  11     CVPP policies and procedures by December 31,             December 31, 2000                             None          Yes
                                                                                       procedure review
         2000.
                                                                                          completion
         DIRM ISS will continue to improve its CVPP and
         implement policies and procedures that depict the                               Revised CVPP
  12     improved CVPP. The revised version of the anti-           March 31, 2001         policies and          None          Yes
         virus directive (Circular 1360.2) is anticipated to be                           procedures
         developed and in the Corporate Directive Clearing
         process by March 31, 2001.


                                                                           18
